No. 20-7284

In the Supreme Court of the United States
TYRELL CURRY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Daniel E. Jones, counsel for Amicus Curiae and a member of the Bar of this
Court, hereby certify that on this 31st day of March, 2021, I caused a copy of the Brief
of the Florida Association of Criminal Defense Lawyers as Amicus Curiae in Support
of Petitioner to be served by email upon:
Andrew Lee Adler
Federal Public Defender’s Office
One East Broward Blvd.
Suite 1100
Fort Lauderdale, FL 33301
andrew_adler@fd.org

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov

Attorney for Petitioner

Attorney for Respondent

I further certify that all parties required to be served have been served.
/s/ Daniel E. Jones
Daniel E. Jones
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
djones@mayerbrown.com

